TA

C@QCKLE

Legal Briefs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-127
ANMARIE CALGARO,
Petitioner,
Vs.

ST. LOUIS COUNTY; LINNEA MIRSCH, Individually and
in Her Official Capacity as Interim Director of St. Louis
County Public Health and Human Services; FAIRVIEW

HEALTH SERVICES, a Minnesota Nonprofit Corporation;

PARK NICOLLET HEALTH SERVICES, a Nonprofit
Corporation; ST. LOUIS COUNTY SCHOOL DISTRICT;
MICHAEL JOHNSON, Individually and in His
Official Capacity as Principal of the Cherry School,

St. Louis County School District; and E.J.K.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENT PARK
NICOLLET HEALTH SERVICES’ OPPOSITION TO PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2876 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary ‘
State of Nebraska a LG Qudraw- &
My Commission Expires Nov 24, 2020 . .

Notary Public Affiant 38566

 

 
